TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       A Statistical Portrayal of Federally
                     Recognized Indian Tribal Governments’
                         Tax Filing Characteristics for
                         Tax Years 2000 Through 2004



                                          March 14, 2007

                              Reference Number: 2007-10-007




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  March 14, 2007


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – A Statistical Portrayal of Federally Recognized
                                Indian Tribal Governments’ Tax Filing Characteristics for
                                Tax Years 2000 Through 2004 (Audit # 200610043)

 This report presents the results of our review of the Indian Tribal Governments (ITG) office
 customers’ tax filing activities. The overall objectives of this audit were to review relevant data
 for the ITG office customer base tax filing activities for Tax Years 2000 through 2004 and
 analyze the data for trends.

 Impact on the Taxpayer
 Tribal economies, stimulated largely by gaming,1 have experienced dynamic growth and
 represent one of the fastest growing segments of the United States economy. Analysis of the tax
 data for Tax Years 2000 through 2004 shows that, as overall income reported by tribal entities2
 increased, tax dollars reported and the associated tax revenues to the Federal Government also
 increased. Additionally, tribal entities have generally fully paid their reported tax obligations.




 1
   There are three classes of gaming. Class I consists of social games for prizes of nominal value, Class II consists of
 games such as bingo or lotto, and Class III consists of card games, dog and horse racing, and all other types of
 casino gaming.
 2
   “Tribal entities” refers to the businesses owned by the Indian tribal government for which there is a Taxpayer
 Identification Number established with the IRS. “Tribes” refers to the general governmental entity and its collective
 business entities.
                      A Statistical Portrayal of Federally Recognized Indian Tribal
                              Governments’ Tax Filing Characteristics for
                                      Tax Years 2000 Through 2004



Synopsis
Some Indian tribes have become more economically self-sufficient by entering into a variety of
enterprises. Many tribes with gaming enterprises, such as casinos and bingo halls, have
experienced dynamic growth, which has resulted in significant increases in revenues reported,
number of employees hired, compensation paid, and taxes reported. This growth has encouraged
more tribes to enter the gaming industry. Currently, 27 percent of the tribes have casino
operations.
As overall income reported by tribal entities increased, tax dollars reported and the associated tax
revenues to the Federal Government also increased. Although the tribes generally do not report
or pay Federal income taxes,3 tribal entities are required to file employment and excise tax
returns and pay any associated taxes. The ITG office customers are more diligent in paying their
tax obligations than the general Internal Revenue Service (IRS) taxpayer population. For
example, Tax Year 2001 statistics show ITG office customers paid 99 percent of the amounts
originally reported as owed, while all IRS customers paid approximately 84 percent of what was
reported as owed.

Response
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance and agreed with the facts and conclusions presented.
Copies of this report are also being sent to the IRS managers affected by the report conclusions.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




3
  Tribal entities (not tribes) organized as State-chartered corporations are required to report income and pay Federal
income tax. Tribal entities organized as partnerships report their income to the IRS but do not pay Federal income
tax. Any associated Federal income tax is the responsibility of the partners.
                                                                                                                         2
                         A Statistical Portrayal of Federally Recognized Indian Tribal
                                 Governments’ Tax Filing Characteristics for
                                         Tax Years 2000 Through 2004




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – List of Tax Forms Used by Tribal Entities ..........................Page 22
       A Statistical Portrayal of Federally Recognized Indian Tribal
               Governments’ Tax Filing Characteristics for
                       Tax Years 2000 Through 2004




                     Abbreviations

FUTA           Federal Unemployment Tax Act
IRS            Internal Revenue Service
ITG            Indian Tribal Governments
TY             Tax Year
                      A Statistical Portrayal of Federally Recognized Indian Tribal
                              Governments’ Tax Filing Characteristics for
                                      Tax Years 2000 Through 2004




                                              Background

The Indian Tribal Governments (ITG) office administers Federal tax laws for the 564 Federally
recognized Indian tribes and their approximately 2,100 related tribal entities.1 In addition, the
ITG office must ensure the Internal Revenue Service (IRS) complies with the treaty provisions
that establish rights of tribal governments (tribes) and Executive Order 13175 (dated
November 6, 2000),2 which outlines the Government-to-Government relationships.
Some tribal economies, stimulated largely by gaming,3 have recently experienced dynamic
growth and represent one of the fastest growing segments of the United States (U.S.) economy.
Tribes without gaming continue to rely on traditional sources of income, such as agriculture and
fishing revenues, and have markedly different tax filing and payment characteristics from those
with gaming enterprises.
Generally, Federally recognized tribes are sovereign governments and are not required to report
income or pay Federal income tax. However, tribal entities are responsible for filing
employment and excise tax returns and paying any associated taxes where applicable. Tribal
entities (not tribes) organized as State-chartered corporations are required to report income and
pay Federal income tax. Tribal entities organized as partnerships report their income to the IRS
but do not pay Federal income tax. Any associated Federal income tax is the responsibility of
the partners. Appendix IV contains a list of tax forms that tribal entities can use to report their
tax obligations.
The ITG office divided its customer base into 3 market segments: tribes with Gaming
(226 tribes and 1,246 entities), tribes without Gaming (Non-Gaming) (238 tribes and
372 entities), and tribes located in Alaska (227 tribes and 264 entities).4 Tribes located in Alaska


1
  “Tribal entities” refers to the businesses owned by the Indian tribal government for which there is a Taxpayer
Identification Number established with the Internal Revenue Service. “Tribes” refers to the general governmental
entity and its collective business entities.
2
  Consultation and Coordination With Indian Tribal Governments, Exec. Order No. 13175, 3 C.F.R. 304 (2001),
reprinted in 25 U.S.C. Section (§) 450 (2001).
3
  There are three classes of gaming. Class I consists of social games for prizes of nominal value, Class II consists of
games such as bingo or lotto, and Class III consists of card games, dog and horse racing, and all other types of
casino gaming.
4
  The ITG office treats some subdivisions of tribal governments as separate tribes because they are decentralized and
do their own tax filings. Therefore, the total number of tribes presented (691) is greater than the total number of
Federally recognized tribes (564). Additionally, the total number of tribal entities presented for the market segments
(1,882) consists of the entities that are currently used by the tribal government or are pending use in the near future.
The number of tribal entities related to the Federally recognized tribes (approximately 2,100) includes all tribal
entities regardless of whether they have any current filing requirements or past filing history.
                                                                                                               Page 1
                  A Statistical Portrayal of Federally Recognized Indian Tribal
                          Governments’ Tax Filing Characteristics for
                                  Tax Years 2000 Through 2004



are generally smaller and have different filing characteristics from tribes in the Gaming and
Non-Gaming market segments.
This review was performed at the ITG National Headquarters office in Washington, D.C., and
the Compliance and Program Management office in Buffalo, New York, during the period
October through November 2006. The dollar amounts presented in this report are the amounts
reported by the tribal entities on their tax returns and have not been verified by the IRS. The
audit was conducted in accordance with Government Auditing Standards. Detailed information
on our audit objectives, scope, and methodology is presented in Appendix I. Major contributors
to the report are listed in Appendix II.




                                                                                            Page 2
                     A Statistical Portrayal of Federally Recognized Indian Tribal
                             Governments’ Tax Filing Characteristics for
                                     Tax Years 2000 Through 2004




                                      Results of Review

Some Indian tribes have become more economically self-sufficient by entering into a variety of
enterprises including casinos, gasoline stations, smoke shops, restaurants, and banks. Many
tribes with gaming enterprises, such as casinos and bingo halls, have experienced dynamic
growth, which has resulted in significant increases for tribal entities in revenues reported,
number of employees hired, compensation paid, and taxes reported. This growth has encouraged
more tribes to enter the gaming industry. Currently, 27 percent of the tribes have casino
operations.
Although some tribes have experienced dynamic growth, the amount of tax reported annually by
all tribal entities is a small percentage of the tax paid by all of the IRS’ business taxpayers.5 For
Tax Years (TY) 2000 through 2002,6 the IRS reported an average business tax paid of more than
$441.4 billion, compared to an average tax reported for the tribal entities of more than
$1.8 billion. The tax reported by the tribal entities increased over these 3 tax years, from
.27 percent to .51 percent of the total.
Analyses of the tax data for TYs 2000 through 2004 provide several indications of the growth in
the ITG office customer base. Gaming operations had the greatest economic impact on the tribal
entities and, as overall income reported by tribal entities increased, tax dollars reported and the
associated tax revenues to the Federal Government also increased. Details of our analyses of the
ITG office customers’ data for TYs 2000 through 2004 are presented below.

Analysis of market segments
The ITG office divided its customer base into three market segments to learn more about the
demographic and tax-filing characteristics that are unique to the respective market segment:
tribes with gaming (Gaming), tribes without gaming (Non-Gaming), and tribes located in Alaska
(Alaska).




5
  “Tax reported” is the amount shown as due on a tax return, and “tax paid” is the amount submitted by the taxpayer.
Generally, the tribal entities paid the amount reported on their tax returns.
6
  Tax data from the IRS Statistics of Income Division were not available for TYs 2003 and 2004.
                                                                                                            Page 3
                                                 A Statistical Portrayal of Federally Recognized Indian Tribal
                                                         Governments’ Tax Filing Characteristics for
                                                                 Tax Years 2000 Through 2004



                                                Figure 1: Number of Tribes and Related Entities in the
                                                            ITG Office Market Segments

                                         1400
                                                          1246
                                         1200
         Number of Tribes and Entities




                                         1000


                                          800
                                                                                                  Number of Tribes
                                                                                                  Number of Entities
                                          600


                                          400
                                                                         372

                                                                   238                   264
                                                    226                            227
                                          200


                                            0
                                                     Gaming        Non-Gaming       Alaska

                                                                 Market Segment

     Source: Analysis of the ITG Database.7

Figure 1 shows the Gaming market segment has the most entities (66 percent). The Gaming
market segment includes businesses that conduct gaming (e.g., casinos) and other business
enterprises such as restaurants or gasoline stations, some of which are close to the gaming sites.
The income generated from the gaming operations provides additional opportunities for
economic development.




7
  The ITG office developed the ITG Database over the past several years. The ITG Database is made up in part by
the Inventory Database, the Outreach Assignment Database, and the Tribal Compliance Database and contains data
from the IRS’ main database (Master File), the Bureau of Indian Affairs, and other sources on Indian tribal
governments and their related enterprises. The ITG Database records contain more than 200 data fields and include
information such as tribal entity data, filing requirements, and line-item information from filed returns such as
wages paid. The Master File is the IRS database that stores various types of taxpayer account information, including
individual, business, and employee plans and exempt organizations data.
                                                                                                                     Page 4
                      A Statistical Portrayal of Federally Recognized Indian Tribal
                              Governments’ Tax Filing Characteristics for
                                      Tax Years 2000 Through 2004



Account balance analysis
Overall, for TYs 2000 through 2004, most of the tribal entities in the ITG office customer base
fully paid their taxes and do not have a balance due on tax returns filed.8 Figure 2 shows the
percentage of tax returns filed that have no balance due on the account (i.e., they are fully paid).
         Figure 2: Percentage of Tax Returns Filed for Which Account Balances
                            Are Fully Paid (TYs 2000 - 2004)

       Market                                          Tax Year                                        Overall
       Segment           2000            2001             2002            2003             2004        Totals
    Gaming                   99.2%           99.1%            98.7%           97.8%            92.6%       97.9%
    Non-Gaming               98.1%           97.9%            97.8%           96.5%            87.2%       96.3%
    Alaska                   97.1%           97.4%            96.3%           96.2%            87.1%       95.5%
    Overall                  98.8%            98.7%           98.2%           97.4%            91.0%       97.3%
    Source: Analysis of IRS Master File information.

Figure 2 shows more than 97 percent of all tax returns filed do not have an account balance
because taxes were either fully paid by the tribal entities or there was no liability. However, this
percentage declined each year, from almost 99 percent in TY 2000 to 91 percent in TY 2004.
Figure 3 compares the total tax dollars reported on accounts that were fully paid to the total tax
dollars reported for all accounts, including those that were fully paid or those that have a balance
due.
    Figure 3: Percentage of Tax Dollars Paid for Accounts With No Account Balance
                 Compared to Total Taxes Reported (TYs 2000 - 2004)

       Market                                          Tax Year                                        Overall
       Segment           2000            2001             2002            2003             2004        Totals
    Gaming                   99.9%           99.3%            97.7%           81.1%            78.9%       89.6%
    Non-Gaming               96.4%           99.7%            99.5%           89.9%            80.7%       92.2%
    Alaska                   95.8%           96.9%            97.4%           97.8%            80.5%       93.2%
    Overall                  99.7%            99.3%           97.7%           81.6%            79.0%       89.7%
    Source: Analysis of IRS Master File information.

Figure 3 shows that overall almost 90 percent of the tax dollars due by the ITG office customer
base were paid either when the return was filed or by the time our analysis was completed (data


8
 For the purpose of this analysis, we did not take into consideration when payment was received on the account.
An account that was fully paid at the time of our analysis (data were obtained through the end of Tax Year 2005)
was treated as if the account had been fully paid when the return was filed.
                                                                                                           Page 5
                      A Statistical Portrayal of Federally Recognized Indian Tribal
                              Governments’ Tax Filing Characteristics for
                                      Tax Years 2000 Through 2004



were obtained through the end of Tax Year 2005). The tax dollars fully paid declined from a
high of almost 100 percent in TY 2000 to 79 percent in TY 2004. This decline is consistent with
the percentage of tax returns presented in Figure 2 that were fully paid.
Tribal entities reported taxes totaling more than $10.7 billion for TYs 2000 through 2004. The
taxes reported more than doubled from TY 2000 to TY 2004. As seen in Figure 4, the Gaming
market segment reported most of the taxes.
           Figure 4: Tax Dollars (in thousands) Reported by Market Segment
                                    (TYs 2000 - 2004)9

            Market                                    Tax Year                                 Total Tax
            Segment          2000          2001          2002         2003          2004       Reported
         Gaming            $1,115,291 $1,927,239 $2,150,747 $2,332,413 $2,626,442 $10,152,132
         Non-Gaming           $67,561       $88,934       $93,881     $116,790      $120,050     $487,216
         Alaska               $11,776       $17,344       $18,470      $19,593       $20,899      $88,083
         Totals           $1,194,629 $2,033,517 $2,263,097 $2,468,796 $2,767,391 $10,727,430
        Source: Analysis of IRS Master File information.

Figure 5 shows the number of associated tax returns filed by tribal entities increased from
TY 2000 to TY 2001 but generally decreased each year thereafter. The Gaming market segment
filed more than 68 percent of the tax returns filed for all 3 market segments.
     Figure 5: Number of Tax Returns Filed by Tribal Entities (TYs 2000 - 2004)10

            Market                                    Tax Year                                   Total
            Segment          2000          2001          2002         2003          2004        Returns
          Gaming                2,087        2,928         2,764         2,693        1,624       12,096
          Non-Gaming              477          767           736           723          368         3,071
          Alaska                  314          617           627           610          326         2,494
         Totals               2,878         4,312        4,127           4,026        2,318       17,661
        Source: Analysis of IRS Master File information.

In addition, analysis of IRS Master File data for TYs 2000 through 2004 indicates that ITG
office customers with balances due on their accounts when the returns were filed subsequently
paid approximately $515 million (93 percent) of the $552 million originally reported as owed.



9
 The numbers in Figure 4 do not add up to the totals presented due to rounding.
10
  The number of tax returns filed for TYs 2000 and 2004 are understated because data were not available on the IRS
Master File for a specific Master File Tax code for a return typically filed by tribal entities. The Master File Tax
code is a 2-digit code used to identify the type of a tax return.
                                                                                                            Page 6
                      A Statistical PoHrayal of Federally Recognized Indian Tribal
                              Governments' Tax Filing Characteristics for
                                      Tax Years 2000 Through 2004



In TY 2001, tribal entities paid more than 99 percent of the tax reported as owed. In contrast,
IRS statistics show that all IRS customers paid approximately 84 percent of what they owed for
TY 2001. While a direct comparison cannot be made due to the makeup of the populations, this
does indicate the ITG office customers are more diligent in paying their tax obligations than the
general IRS taxpayer population.

Income reported bv tribal entities
Overall, income fiom tribal partnerships and corporations increased between TYs 2000
and 2004. Partnership income is reported to the IRS on the U.S. Return of Partnership
Income (Form 1065): and corporate income is reported on the U.S. Corporation Income Tax
Return (Form 1120 series). Analysis of the income reported for the partnerships and
corporations owned by the tribes identified the following trends.
Partnership incomd1- Form 1065
Tribal entities in the Gaming market segment reported total partnership income of almost
$1.9 billion during TYs 2000 through 2004, for an annual average of approximately
$379 million. The income almost tripled from TY 2000 to TY 200 1 then decreased slightly
through TY 2004. In contrast, tribal entities in the Non-Gaming market segment reported
income of less than $3.5 million, and
               Figure 6 shows the partnership income for the Gaming market segment.




11
   A partnership does not pay tax on its income but "passes through" any profits or losses to its partners. Form 1065
is an information return used to report the income, deductions, gains, losses, etc., from the operation of a
partnership. Partners must include partnership items (e.g., income, deductions, and credits) on their individual tax
returns.
                                                                                                             Page 7
                                     A Statisticaf Portrayat of Federa//y Recognized Indian Trilba/
                                             Governments' Tax Fiiing Characteristics for
                                                     Tax Years 2000 Through 2004



       Figure 6: Total Partnership Income (in millions) Reported by the Gaming
                          Market Segment (7% 2000 2004)                   -
                 500.0
                 450.0
                 400.0
                 350.0
            e
            PI



                 300.0
            P:
            -- 250.0
            e
            4 200.0
                 150.0
                 100.0
                  50.0
                   0.0
                                       2000        2001         2002              2003                     2004
                                                              Tax Year

                                                  0Total Income +Number       of Returns

     Sotrrce: Analysis of Forms 1065.
Figure 6 shows the dramatic increase in the amount of partnership income in the Gaming market
segment from TY 2000 to TY 2001, even though the number of returns filed remained constant.
Corporate income'' - Form 1120
 Tribal entities in the Gaming and Non-Gaming market segments reported total corporate income
 of almost $2 19 million during TYs 2000 through 2004. by' ''~; ,                -  - ,
                                                                                    ,    ' X   B"

                                                                                                    1bil
                                                                                                           *A


                                                                                                            ,
                                                                                                                ' I +
                                                                                                                        4 Illtl,'
      " . r
p.     ""




  1120s"forthe
                  <'e
                              Figure 7 shows the income and tax reported for the Forms 1120 and
                          ' r1 -':




                         ami in^
                         andlNon-Gaming market segments. ITG office management expressed
 concern about the tribal entities that have filed a Form 1120s because the tribal entities cannot be
 shareholders in these enterprises. ITG office management determined they were already
 conducting examinations on some of the tribal entities we identified and started performing
 additionalresearch on the others to determine whether examinations are warrantkd.

'' Corporate entities file Form 1120 to report, in part, the corporate income, gains, or losses and to calculate the
income tax liability of a corporation. A domestic corporation or other entity may file the U.S. Income Tax Return
for an S Corporation (Form 1 120s) for any tax year covered by an election to be an S corporation. Corporations
filing Forms 1120 pay the income taxes, whereas corporations filing Forms 1120s generally pass the income
through to the shareholders, who then pay the tax.
                                                                                                                           Page 8
                     A Statistical Portrayal of Federally Recognized Indian Tribal
                             Governments’ Tax Filing Characteristics for
                                     Tax Years 2000 Through 2004



     Figure 7: Total Corporate Income and Tax Reported on the Form 1120 Series
                                  (TYs 2000 - 2004)
                                                       Market Segment

                          Tax                  Gaming                 Non-Gaming
                          Year          Income          Tax        Income        Tax
                           2000       $38,336,000       $37,000    $793,000      $2,000
                           2001       $40,125,000     $363,000     $815,000            $0
                           2002       $35,194,000     $280,000     $487,000            $0
                           2003       $44,369,000    $1,294,000    $328,000            $0
                          2004        $58,107,000    $700,000       $24,000      $1,000
                     Source: Analysis of Forms 1120 and 1120S.

The Gaming market segment reported significantly more income and tax on Forms 1120 and
1120S than the other market segments.

Employee compensation reported by tribal entities13
Employee compensation reported by tribal entities increased during TYs 2000 through 2004.
Figure 8 shows the calculated average compensation per entity by market segment.




13
 Employers report the amount of wages, tips, and other compensation on either the Employer’s Annual Federal
Unemployment (FUTA) Tax Return (Form 940) or Employer’s Quarterly Federal Tax Return (Form 941).
                                                                                                       Page 9
                                                 A Statistical Portrayal of Federally Recognized Indian Tribal
                                                         Governments’ Tax Filing Characteristics for
                                                                 Tax Years 2000 Through 2004



                Figure 8: Average Compensation (in thousands) per Entity
                           by Market Segment (TYs 2000 - 2004)

                                                12,000
                Average Compensation Reported




                                                10,000


                                                 8,000


                                                 6,000


                                                 4,000


                                                 2,000


                                                    0
                                                            2000           2001          2002           2003           2004

                                                                                       Tax Year

                                                  Gaming Market Segment   Non-Gaming Market Segment   Alaska Market Segment

             Source: Analysis of Forms 940 and 941.

The average compensation for all 3 market segments increased over the 5-year period, with the
most notable increase in the Gaming market segment, which had a more than a 150 percent net
increase in total compensation reported (from more than $3.6 billion to almost $9.2 billion).

Number of employees reported by tribal entities
The number of employees reported by tribal entities more than tripled from TY 2000 to
TY 2004, as shown in Figure 9.14




14
  From our review of IRS Master File data, we noted that many of the entities reported zero employees even though
they reported employment taxes on a Form 941. Additionally, we identified instances in which the number of
employees on the IRS Master File was apparently incorrect. We estimated the correct number of employees for the
obvious errors.
                                                                                                                              Page 10
                                      A Statistical Portrayal of Federally Recognized Indian Tribal
                                              Governments’ Tax Filing Characteristics for
                                                      Tax Years 2000 Through 2004



           Figure 9: Total Number of Employees Reported by Tribal Entities
                                  (TYs 2000 - 2004)

                                     300,000
                                                                                           274,742    283,274
               Number of Employees




                                     250,000
                                                                             255,010
                                                             234,251
                                     200,000

                                     150,000

                                     100,000
                                                  81,986
                                      50,000

                                          0
                                               2000        2001           2002           2003        2004
                                                                        Tax Year

                                                                       Total Employees

            Source: Analysis of Forms 941 and Employer’s Annual Federal Tax Returns for Agricultural
            Employees (Form 943).

The number of employees reported by tribal entities increased from almost 82,000 to more than
283,000. The Gaming market segment showed the largest increase, 276 percent, from more than
69,000 employees in TY 2000 to almost 261,000 in TY 2004. This increase in the number of
employees can be attributed in part to an increase of more than 288 percent in the number of
Forms 941 and 943 filed by the Gaming market segment.

Taxes reported by tribal entities
Total income, employee compensation paid by the tribal entities, and the amount of taxes15
reported by the tribal entities increased during TYs 2000 through 2004. Our analysis of taxes
reported by the tribal entities identified the following trends.
Employment taxes reported by tribal entities
Tribal entities reported more than $9.1 billion in employment taxes on Forms 941 and 943 during
TYs 2000 through 2004. Figures 10, 11, and 12 show the employment taxes reported by the
three market segments.



15
  Taxes reported by the tribal entities include, but are not limited to, corporate, employment, Federal
unemployment, and excise taxes and taxes withheld on nonpayroll payments and payments to foreign individuals
and businesses.
                                                                                                                Page 11
                              A Statistical Portrayal of Federally Recognized Indian Tribal
                                      Governments’ Tax Filing Characteristics for
                                              Tax Years 2000 Through 2004



Figure 10: Employment Taxes (in thousands) Reported on Forms 941 and
      943 by the Gaming Market Segment Entities (TYs 2000 - 2004)

                             2,500,000
      Tax Dollars Reported




                             2,000,000
                                                                                               2,200,765
                                                                                   1,986,380
                             1,500,000                                1,799,716
                                                       1,653,991
                             1,000,000
                                            893,136
                              500,000

                                       0
                                             2000          2001           2002         2003        2004
                                                                        Tax Year

                                                                   Gaming Market Segment

    Source: Analysis of Forms 941 and 943.

Figure 11: Employment Taxes (in thousands) Reported on Forms 941 and
    943 by the Non-Gaming Market Segment Entities (TYs 2000 - 2004)

                             140,000
                             120,000
      Tax Dollars Reported




                                                                                   115,449
                             100,000                                                           119,132
                              80,000                                 93,320
                                                      88,452
                              60,000
                                           66,979
                              40,000
                              20,000
                                   0
                                            2000          2001           2002          2003        2004
                                                                       Tax Year

                                                                 Non-Gaming Market Segment

    Source: Analysis of Forms 941 and 943.




                                                                                                           Page 12
                                        A Statistical Portrayal of Federally Recognized Indian Tribal
                                                Governments’ Tax Filing Characteristics for
                                                        Tax Years 2000 Through 2004



        Figure 12: Employment Taxes (in thousands) Reported on Forms 941
              by the Alaska Market Segment Entities (TYs 2000 - 2004)

                                       25,000
                Tax Dollars Reported




                                       20,000
                                                                                    19,544   20,847
                                                                      18,373
                                       15,000
                                                         17,262
                                       10,000
                                                11,643
                                        5,000

                                           0
                                                  2000     2001         2002         2003      2004
                                                                      Tax Year

                                                                  Alaska Market Segment

             Source: Analysis of Forms 941.

All three market segments show an increase in the amounts of employment taxes paid.
Federal income tax withheld
Tribal entities reported more than $2.28 billion in Federal income tax withheld from nonpayroll
payments on Annual Returns of Withheld Federal Income Tax (Form 945)16 for TYs 2000
through 2004. Figure 13 shows the amount reported as taxes withheld increased each year for
TYs 2000 through 2004.




16
  These payments include, but are not limited to, pensions, annuities, and Individual Retirement Arrangement
distributions; gambling winnings; and Indian gaming profits. Generally, these taxes are reported on the Form 1099
series of information documents (see Appendix IV for a list of documents in the Form 1099 series) or Certain
Gambling Winnings (Form W-2G). Federal income tax withheld from wages is not reported on Form 945.
                                                                                                         Page 13
                                  A Statistical Portrayal of Federally Recognized Indian Tribal
                                          Governments’ Tax Filing Characteristics for
                                                  Tax Years 2000 Through 2004



         Figure 13: Annual Withholding (in thousands) of Federal Income Tax
                                 (TYs 2000 - 2004)

                               700,000

                                                                                            580,815
                               600,000
                                                                               489,110
                                                                    479,626
                               500,000
              Tax Withheld .




                                                      400,524
                               400,000
                                            333,494

                               300,000


                               200,000


                               100,000


                                    0
                                                                Tax Years

                                                      2000   2001     2002    2003   2004

          Source: Analysis of Forms 945.

Federal Unemployment Tax Act (FUTA)17 tax reported
Federal unemployment tax18 reported by tribal entities on Forms 940 decreased significantly
from TY 2000 to TY 2004. Tribal entities are required to pay Federal unemployment tax unless
they are complying with and paying State unemployment taxes. Figure 14 indicates a decrease
in Federal unemployment tax of more than 50 percent from TY 2000 to TY 2001 for the Gaming
market segment. The combined Federal unemployment tax reported by the Alaska and
Non-Gaming market segments is approximately 7 percent of the total Federal unemployment tax
reported by the ITG office customers.



17
  26 U.S.C. §§ 3301-3312 (2003).
18
  The Federal unemployment tax is part of the Federal and State program under the FUTA that pays unemployment
compensation to workers who lose their jobs. Federal unemployment tax is reported and paid separately from Social
Security and Medicare taxes and from withheld income tax. It is reported on Form 940.
                                                                                                       Page 14
                                   A Statistical Portrayal of Federally Recognized Indian Tribal
                                           Governments’ Tax Filing Characteristics for
                                                   Tax Years 2000 Through 2004



     Figure 14: Amount of Federal Unemployment Tax (in thousands) Reported by
                         Market Segment (TYs 2000 - 2004)

                          12,000


                          10,000


                           8,000
          FUTA Reported




                           6,000


                           4,000


                           2,000


                              0
                                       2000          2001           2002           2003           2004
                                                                  Tax Year

                             Gaming Market Segment   Non-Gaming Market Segment   Alaska Market Segment

        Source: Analysis of Forms 940.

ITG office management stated the tribal entities may have shifted from paying Federal
unemployment tax to paying State unemployment taxes due to a legislative change19 in
Fiscal Year 2001 that allows the tribal entities to pay State unemployment taxes rather than
Federal unemployment tax.
Excise taxes reported
Tribal entities reported more than $12.7 million in excise taxes during TYs 2000 through 2004.
Excise taxes are reported on the Occupational Tax and Registration Return for Wagering
(Form 11-C), the Quarterly Federal Excise Tax Return (Form 720), the Monthly Tax Return for
Wagers (Form 730), and the Heavy Highway Vehicle Use Tax Return (Form 2290). Figure 15
shows the percentage of excise taxes reported by Form.



19
  Consolidated Appropriations Act of 2001, Pub. L. No. 106-554, Sec. 1(a) (7) [title I, Sec. 166(b), (c)],
Dec. 21, 2000, 114 Stat. 2763, 2763A-627.
                                                                                                             Page 15
                 A Statistical Portrayal of Federally Recognized Indian Tribal
                         Governments’ Tax Filing Characteristics for
                                 Tax Years 2000 Through 2004



Figure 15: Percentage of Excise Taxes Reported by Form Type (TYs 2000 - 2004)

                                 1.1%                             0.3%




                   47.3%
                                                                            51.2%




                                        Excise Taxes by Form


                        Form 11-C         Form 720     Form 730     Form 2290
            Source: Analysis of Forms 11-C, 720, 730, and 2290.

Figure 15 shows Forms 720 and 730 accounted for more than 98 percent of the excise taxes
reported: $6.5 million and $6.0 million, respectively. Tribal entities reported more than
$144,000 in excise taxes on Forms 2290 and almost $42,000 on Forms 11-C.
Tax withheld for foreign persons
Tribal entities are required to file Annual Withholding Tax Returns for U.S. Source Income of
Foreign Persons (Form 1042) to show the gross income paid and the income tax withheld from
foreign individuals, including nonresident aliens, foreign partnerships, foreign corporations,
foreign estates, and foreign trusts. During TYs 2000 to 2004, tribal entities in the Gaming
market segment reported more than $318 million in gross income paid to foreign individuals and
withheld more than $71 million in taxes.
Figure 16 compares the tax withheld and the gross income reported by the Gaming market
segment.




                                                                                       Page 16
                       A Statistical Portrayal of Federally Recognized Indian Tribal
                               Governments’ Tax Filing Characteristics for
                                       Tax Years 2000 Through 2004



Figure 16: Tax Withheld and Gross Income (in millions) Reported by the Gaming
           Market Segment Entities on Forms 1042 (TYs 2000 - 2004)

                 100
                                                                                            88
                  90

                  80
                                                                                  72
                  70                                          63
                  60
       Dollars




                            48             47
                  50

                  40

                  30

                  20                                     14               15           16
                       13             13
                  10

                   0
                        2000           2001                2002             2003        2004
                                                         Tax Year

                                           Tax Witheld    Gross Income Reported

    Source: Analysis of Forms 1042.

Although the amount of tax withheld showed a slight increase, it was not proportional to the
marked increase in the amount of gross income reported. Gross income reported increased
83 percent from TY 2000 to TY 2004; however, the tax withheld over the same period increased
only 23 percent, from $13.3 million to $16.4 million. Additionally, the percentage of tax
withheld decreased from 27 percent of gross income reported in TY 2000 to more than
18 percent of gross income reported in TY 2004.
The Non-Gaming market segment reported almost $444,000 in gross income paid on
Forms 1042 and withheld more than $68,000 in taxes. For the 5 tax years we reviewed, the
Alaska market segment reported more than $11,000 in gross income paid on Forms 1042 and
withheld less than $40 in tax.




                                                                                                 Page 17
                     A Statistical Portrayal of Federally Recognized Indian Tribal
                             Governments’ Tax Filing Characteristics for
                                     Tax Years 2000 Through 2004



                                                                                                  Appendix I

        Detailed Objectives, Scope, and Methodology

Our overall objectives were to review relevant data for the ITG office customer base tax filing
activities for TYs 2000 through 2004 and analyze the data for trends. To accomplish our
objectives, we:
I.      Identified and obtained data relating to the ITG office customer base.
        A. Obtained the ITG Database1 (cumulative through the end of Fiscal Year 2005) from
           the Director, ITG, and determined the population and market segments of the ITG
           office customers.
        B. Obtained IRS Master File data for TYs 2000 through 2004 for analysis.
        C. Validated the ITG Database information by relying on previous Treasury Inspector
           General for Tax Administration audit work2 that had used and established the validity
           of the data. The Master File information was validated by relying on the Treasury
           Inspector General for Tax Administration Information Systems Programs Electronic
           Data Processing Audit Support group’s documentation ensuring the data extracted
           from the Business Master File were an exact replica and the character of the data was
           not changed.
II.     Analyzed the tax filing data for TYs 2000 through 2004 and developed a profile of the
        ITG office’s customer base.
        A. Identified the market segments for the tribes and tribal entities in the ITG office
           customer base.



1
  The ITG office developed the ITG Database over the past several years. The ITG Database is made up in part by
the Inventory Database, the Outreach Assignment Database, and the Tribal Compliance Database and contains data
from the IRS’ main database (Master File), the Bureau of Indian Affairs, and other sources on Indian tribal
governments and their related enterprises. The ITG Database records contain more than 200 data fields and include
information such as tribal entity data, filing requirements, and line-item information from filed returns such as
wages paid. The Master File is the IRS database that stores various types of taxpayer account information, including
individual, business, and employee plans and exempt organizations data.
2
  The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to Indian Tribal
Governments Most in Need of Compliance Checks (Reference Number 2004-10-191, dated September 2004), The
Indian Tribal Governments Office Can Improve the Effectiveness, Consistency, and Efficiency of Compliance
Checks (Reference Number 2005-10-158, dated September 2005), and Statistical Portrayal of the Indian Tribal
Government Office’s Enforcement Activities From Fiscal Year 2002 Through Fiscal Year 2005 (Reference
Number 2006-10-121, dated August 23, 2006).
                                                                                                          Page 18
          A Statistical Portrayal of Federally Recognized Indian Tribal
                  Governments’ Tax Filing Characteristics for
                          Tax Years 2000 Through 2004



B. Determined employment tax statistics, such as the number of employees, amount of
   employment taxes, and amount of wages reported for each market segment, by tax
   year.
C. Determined the income reported on the Annual Withholding Tax Returns for U.S.
   Source Income of Foreign Persons (Form 1042), U.S. Returns of Partnership Income
   (Form 1065), U.S. Corporation Income Tax Returns (Form 1120), and U.S. Income
   Tax Returns for an S Corporation (Form 1120S) for each market segment by tax year.
D. Determined the amount of nonpayroll income tax reported as withheld on the Annual
   Returns of Withheld Federal Income Tax (Form 945) for each market segment by tax
   year.
E. Determined the amount of Federal unemployment tax reported as withheld on the
   Employer’s Annual Federal Unemployment (FUTA) Tax Returns (Form 940) for
   each market segment by tax year.
F. Determined the amount of excise taxes reported on the Occupational Tax and
   Registration Returns for Wagering (Form 11-C), Quarterly Federal Excise Tax
   Returns (Form 720), Monthly Tax Returns for Wagers (Form 730), and Heavy
   Highway Vehicle Use Tax Returns (Form 2290) for each market segment by tax year.
G. Determined the account payment statistics, such as the number of taxpayer accounts
   that have been settled, on which refunds were owed, or that had balances due and the
   total associated dollars for each market segment, by tax year.




                                                                                Page 19
                 A Statistical Portrayal of Federally Recognized Indian Tribal
                         Governments’ Tax Filing Characteristics for
                                 Tax Years 2000 Through 2004



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Gerald T. Hawkins, Acting Director
Jeffrey M. Jones, Acting Director
Julia M. Collins, Acting Audit Manager
Andrew J. Burns, Lead Auditor
Donald J. Martineau, Auditor
Arlene Feskanich, Senior Information Technology Specialist




                                                                                    Page 20
                 A Statistical Portrayal of Federally Recognized Indian Tribal
                         Governments’ Tax Filing Characteristics for
                                 Tax Years 2000 Through 2004



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Indian Tribal Governments, Tax Exempt and Government Entities Division
SE:T:GE:ITG
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 21
                          A Statistical Portrayal of Federally Recognized Indian Tribal
                                  Governments’ Tax Filing Characteristics for
                                          Tax Years 2000 Through 2004



                                                                                                   Appendix IV

                     List of Tax Forms Used by Tribal Entities

      Form                                                         Title
    W-2G              Certain Gambling Winnings
    11-C              Occupational Tax and Registration Return for Wagering
    720               Quarterly Federal Excise Tax Return
    730               Monthly Tax Return for Wagers
    940 Series        Employer’s Annual Federal Unemployment (FUTA) Tax Return
    941 Series        Employer’s Quarterly Federal Tax Return
    943               Employer’s Annual Federal Tax Return for Agricultural Employees
    945               Annual Return of Withheld Federal Income Tax
    1042 Series       Annual Withholding Tax Return for U.S. Source Income of Foreign Persons
    1065 Series       U.S. Return of Partnership Income
    1096              Annual Summary and Transmittal of U.S. Information Returns
                 1
    1099 Series       Various Informational Returns
                       1099-A         Acquisition or Abandonment of Secured Property
                       1099-B         Proceeds From Broker and Barter Exchange Transactions
                       1099-C         Cancellation of Debt
                       1099-CAP       Changes in Corporate Control and Capital Structure
                       1099-DIV       Dividends and Distributions
                       1099-G         Certain Government Payments
                       1099-H         Health Coverage Tax Credit (HCTC) Advance Payments
                       1099-INT       Interest Income
                       1099-LTC       Long-Term Care and Accelerated Death Benefits
                       1099-MISC Miscellaneous Income
                       1099-OID       Original Issue Discount
                       1099-PATR Taxable Distributions Received From Cooperatives
                       1099-Q         Payments From Qualified Education Programs (Under Sections 529 and 530)
                       1099-R         Distributions From Pensions, Annuities, Retirement or Profit-Sharing Plans, IRAs,
                                      Insurance Contracts, etc.
                       1099-S         Proceeds From Real Estate Transactions
                       1099-SA        Distributions From an HSA, Archer MSA, or Medicare Advantage MSA
    1120 Series       U.S. Corporation Income Tax Return
    2290              Heavy Highway Vehicle Use Tax Return
    8027              Employer’s Annual Information Return of Tip Income and Allocated Tips



1
    IRA - Individual Retirement Arrangement; HSA - health savings account; MSA - medical savings account.
                                                                                                              Page 22
